HHS/OIG-Audit--"Review of the Food and Drug Administration's Headquarters Imprest Fund, (A-15-92-00019)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Food and Drug Administration's Headquarters Imprest Fund,"
(A-15-92-00019)
June 7, 1993
Complete Text of Report is available in PDF format
(2.42 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Food and Drug Administration's
(FDA) Parklawn Headquarters Imprest Fund (HQIF). In February 1992, the Commissioner
of Food and Drugs requested that the Office of Inspector General (OIG) determine
the adequacy of the internal controls relating to the Parklawn HQIF operations.
The Commissioner's request was prompted by FDA's discovery in January 1992,
that a former employee had falsified travel advance forms to fraudulently obtain
over $25,000 in cash from the Parklawn HQIF between September 18, 1991, and
January 27, 1992. The Commissioner asked that we examine the changes FDA has
made to improve the HQIF's integrity and determine if any additional safeguards
are required. The report includes several recommendations for corrective actions
pertaining to the Parklawn HQIF operations.